Capital Case
No. ________________

IN THE SUPREME COURT OF THE UNITED STATES

RAYMOND EUGENE JOHNSON,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Raymond Eugene Johnson, is now being held by the
Oklahoma Department of Corrections, currently incarcerated at the
Oklahoma State Penitentiary where he is serving a sentence of death. Mr.
Johnson requests leave to file the attached Petition for Writ of Certiorari
to the Court of Criminal Appeals of Oklahoma without payment of costs
and to proceed in forma pauperis pursuant Rule 39 of the Rules of the
Supreme Court of the United States.

Mr. Johnson is indigent and has been represented by appointed
counsel throughout the proceedings against him. On January 8, 2013, the
United States District Court for the Northern District of Oklahoma, Case
No. CIV-13-0016-CVE-FHM, appointed the Office of the Federal Public
Defender for the Western District of Oklahoma to represent Mr. Johnson.
18 U.S.C. ยง 3006A. Thus, Petitioner is not required to submit a notarized
affidavit or declaration in support of this motion. Supreme Court Rule
39.1.
Respectfully submitted,
s/Thomas D. Hird
THOMAS D. HIRD, OBA # 13580*
MICHAEL W. LIEBERMAN, OBA # 32694
Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 Phone
(405) 609-5976 Fax
Tom_Hird@fd.org
Michael_Lieberman@fd.org
ATTORNEYS FOR PETITIONER,
RAYMOND EUGENE JOHNSON
Dated this 5th day of March, 2021.
* Counsel of record

